AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Department of Energy Contractor
 Home Office Expenses




 DOE/IG-0676                                February 2005
REPORT ON DEPARTMENT OF ENERGY CONTRACTOR
HOME OFFICE EXPENSES_____________________________


TABLE OF
CONTENTS



               Home Office Expenses


               Details of Finding............................................................. 1

               Recommendations and Comments ................................. 5


               Appendices

               1. Objective, Scope, and Methodology .......................... 9

               2. Prior Reports............................................................ 11

               3. Management Comments.......................................... 12
HOME OFFICE EXPENSES
_________________________________________________________________________________________________

Equitable Share                 Our review of five contracts for national laboratories
Determination and               disclosed that the Department of Energy (Department)
Reimbursement                   agreed to provide fees, fixed payments, and/or
                                reimbursements for actual home office expenses that were
                                (1) potentially duplicative; (2) not adequately documented;
                                (3) improperly calculated; and/or (4) for specifically
                                unallowable items. For a home office expense to be
                                allowable it must be reasonable, allocable, conform to
                                limitations and exclusions set forth in the cost principles
                                and in the contract, and be adequately documented.

                                                   Compensation Structure

                                The Department agreed to a compensation structure for the
                                University of California that may not reflect its actual
                                contribution to Government activities. The Department's
                                acquisition regulation states that management and operating
                                contractors generally require minimal home office
                                involvement because the Government reimburses all
                                management costs associated with operations, and,
                                consequently, care must be taken when determining the
                                share of home office expenses that should be reimbursed.

                                Despite this guidance, we observed that the Department
                                committed to pay the University of California three forms
                                of compensation to cover part of the University's home
                                office costs. These included actual home office expenses, a
                                fee, and separate fixed payments of about $55 million over
                                a 5-year period. Contracting officials agreed to provide the
                                separate fee and fixed payments even though the
                                Department had committed to pay the actual expenses for
                                operating the University of California's Office of the Vice
                                President for Laboratory Management – the organization
                                whose function is to oversee the contracts for operation of
                                Departmental facilities. While calculations regarding the
                                fixed payment agreement were documented, the
                                Department did not document how all three forms of
                                payment represented compensation for home office
                                expenses' contribution to Government activities.

                                              Determination of Fixed Payments

                                The Department did not correctly calculate the agreed-to
                                fixed payments for reimbursing home office expenses for




________________________________________________________________
Page 1                                            Details of Finding
_________________________________________________________________________________________________

                                the University of California. While the percentage used to
                                determine the fixed payments was computed using a Cost
                                Accounting Standards formula, the Department and the
                                contractor incorrectly applied the formula. As a result, the
                                percentage applied to home office expenses was
                                significantly higher than it should have been, and by the
                                end of Fiscal Year (FY) 2005, the Department will have
                                overpaid about $21 million for the 5-year contract period.
                                Department contracting officials for the University of
                                California contracts reviewed the contractor's proposal
                                prior to determining the fixed payment amounts and found
                                that the proposal had certain errors. As a result, they
                                required University officials to modify the proposal.
                                However, the Department's financial analyst for the cost
                                proposal explained that the calculation error we discovered
                                was not noticed and agreed that the amount had been
                                incorrectly calculated.

                                In addition, the Department did not detect that the
                                University of California's home office expense proposal
                                included various academic-related expenses and other items
                                that were unrelated to Department activities. For example,
                                the Department agreed to provide reimbursement for a
                                percentage of operational expenses such as:

                                    •   Maintaining a postsecondary education
                                        commission;
                                    •   Accounting expenses related to a hospital facility,
                                        endowments, and investments;
                                    •   Student-related information technology costs;
                                    •   Faculty-related home loan programs; and,
                                    •   Planning costs for university capital projects.

                                These academic-related expenses and those related to other
                                university activities did not contribute to Department or
                                laboratory operations. Reimbursement of such expenses is
                                prohibited under Federal cost principles. Had these costs
                                been appropriately excluded from the contractor's proposal,
                                we estimated that by the end of FY 2005 the Department
                                could have avoided more than $8 million over the 5-year
                                contract period.

                                In another case, the Department agreed to fixed payments
                                of $11 million over a 5-year contract period that ended
                                September 30, 2004, for the University of Chicago without
                                adequately assessing the contribution that the University's

________________________________________________________________
Page 2                                            Details of Finding
_________________________________________________________________________________________________

                                home offices would provide to Argonne National
                                Laboratory. Prior to negotiating fixed payment amounts,
                                the Department reviewed and reduced the University's cost
                                proposal mainly by eliminating certain offices that the
                                Department concluded would provide no benefit to the
                                laboratory. However, the Department did not perform and
                                document an analysis to determine whether the payments
                                were a reasonable estimate of the contribution that the
                                remaining offices would provide to the laboratory.

                                    Reimbursements for Actual Home Office Expenses

                                The Department reimbursed two contractors nearly
                                $1 million over a 2-year period for expenses that were not
                                allowed by cost principles or contract terms, or were
                                erroneously charged. In the case of the University of
                                California, the Department agreed to reimburse, up to an
                                annual ceiling amount, actual expenses incurred by the
                                University's Office of the Vice President for Laboratory
                                Management. This Office was responsible for direct
                                oversight of three Department laboratories. In FYs 2002
                                and 2003, the Department reimbursed the University about
                                $740,000 for expenses that were erroneously claimed and
                                not actually incurred. Specifically, the University
                                erroneously claimed as expenses in those years amounts
                                that it had refunded to the Department because it had
                                received reimbursements over actual costs in FYs 1999,
                                2000, and 2001. In the following period, the University
                                charged the amount it returned to the Government as an
                                expense and was subsequently reimbursed by the
                                Department for the erroneous charge. In addition, based on
                                our examination of a judgmental sample of expense
                                transactions, we determined that the Department
                                reimbursed about $140,000 for expenses that were
                                prohibited by cost principles and were therefore
                                unallowable. For instance, these expenses included costs
                                related to recruiting students for the University of
                                California, donations, and for other miscellaneous
                                inappropriate expenses.

                                We also determined that the Department reimbursed
                                Universities Research Associates, Inc., the contractor for
                                Fermi National Accelerator Laboratory, for inappropriate
                                and unallowable home office related expenses. Based on
                                our review of a judgmental sample of transactions in
                                FYs 2001 and 2002, we identified about $75,000 that the

________________________________________________________________
Page 3                                            Details of Finding
_________________________________________________________________________________________________

                                Department reimbursed for expenses that are generally
                                prohibited by cost principles, such as expenses associated
                                with managing an investment portfolio and other items.


Departmental Contract           Problems with the award and administration of home office
Administration                  expenses occurred because the Department's contract
                                administration activities were not always adequate. For the
                                University of California contracts, contracting officials did
                                not perform or document their analyses regarding what
                                compensation structure to adopt or the contribution of
                                home offices to Federally-funded activities. Before
                                agreeing to fixed payments for home office expenses,
                                adequate financial reviews of cost proposals were not
                                conducted and documented to demonstrate how the
                                Department's laboratories would benefit from the
                                contractors' home office activities. In the case of the
                                University of California, reviews by contracting officials of
                                proposed fixed payment amounts were insufficient to detect
                                errors in calculating an allocation percentage and the
                                inclusion of inappropriate costs in the allowance.

                                We noted that subsequent to our audit field work, the
                                Department modified its contract with the University of
                                Chicago to eliminate fixed payments for home office
                                expenses. Effective October 1, 2004, the modified contract
                                provides for establishing ceiling reimbursement amounts
                                and, if actual costs are less than the ceilings, requires the
                                University to refund the difference. The Department also
                                advised us that it has a plan for reviewing expenses prior to
                                negotiating ceiling amounts and for reviewing historical
                                costs each year. However, we did not review the plan to
                                determine whether it includes an assessment of the
                                contribution that central offices provide to the laboratory.

                                For the contractors we reviewed who were reimbursed for
                                actual unallowable expenses, the Department did not
                                perform adequate financial reviews of expenses claimed by
                                the contractors to determine whether they were allowable.
                                For example, the Department did not require the University
                                of California to report actual incurred expenses. For
                                Universities Research Associates, Inc., the Department had
                                a process in place to review ceiling amounts and actual
                                claimed home office costs. However, these reviews did not
                                detect the questionable expenses we identified.



________________________________________________________________
Page 4                                            Details of Finding
_________________________________________________________________________________________________

Operational Impacts             As a result of the lack of adequate financial examination
                                of home office expenses, we estimated that the Department
                                will have reimbursed two contractors about $30 million by
                                the end of FY 2005 for unallowable and inappropriate
                                costs. Such funds could have been better applied to
                                mission needs of the Department's programs and activities.
                                In addition to past mission impacts, the possibility for
                                future overpayments exists as the Department moves
                                forward with the competition and negotiation of several
                                new management and operating contracts in the near future.
                                Without effective financial reviews of home office expense
                                proposals and actual costs, the Department could
                                significantly overpay future contractors for home office
                                expenses with little assurance that payments are equitable
                                and reasonable. Detailed financial reviews of cost
                                proposals would also help ensure that only allowable costs
                                are reimbursed through fixed home office payment
                                agreements and that the agreed-to amounts are
                                commensurate with the planned level of home office
                                involvement in contract activities.


RECOMMENDATIONS                 We recommend that the Administrator, National Nuclear
                                Security Administration and the Director, Office of
                                Science, in conjunction with the Director, Office of
                                Procurement and Assistance Management, direct
                                contracting officers:

                                  1. To enhance their financial oversight of management
                                     and operating contractors to ensure that:

                                      a) Analyses are performed to determine the equitable
                                         amount and structure of home office
                                         compensation and that the adopted rationale be
                                         documented;

                                      b) Payments for actual home office expenses receive
                                         timely review and exclude unallowable expenses;
                                         and,

                                      c) Agreed-to fixed payment amounts for reimbursing
                                         home office expenses exclude unallowable
                                         expenses.




________________________________________________________________
Page 5                              Recommendations and Comments
_________________________________________________________________________________________________



                                  2. Make a determination regarding the allowability of
                                     the home office expenses questioned in our audit and
                                     recover all overpayments.


MANAGEMENT                      The Office of Science (Science) concurred with our
REACTION                        recommendations. Specifically, Science stated that its
                                contracting officers will be required to perform and
                                document analyses in order to determine an equitable
                                amount and structure of home office compensation. In
                                addition, Science stated that its contracting officers will be
                                required to ensure that all payments for actual home office
                                expenses are reviewed in a timely manner, and unallowable
                                expenses are excluded from payments and reimbursement
                                agreements. Science further stated that contracting officers
                                will assure that all contract terms and conditions regarding
                                home office expenses are implemented and that expenses
                                questioned in our report will be reviewed to determine
                                allowability.

                                The National Nuclear Security Administration (NNSA)
                                generally agreed with our report and subsequent
                                recommendations. NNSA acknowledged that, as an
                                organization, it will continue building on its financial
                                oversight strengths and include improved home office
                                expense reviews. NNSA stated that it will reinforce the
                                requirement for the respective contracting officers to
                                perform due diligence as related to the recommendations to
                                analyze, review, and exclude, as appropriate, cost issues
                                associated with home office expenses. In addition, NNSA
                                stated that its respective contracting officers will work
                                together to ensure consistency in cost determination and
                                recover any overpayments as appropriate.

                                The Office of Procurement and Assistance Management
                                provided what we considered to be informal comments
                                stating that it has no specific objections to our
                                recommendations. However, the Office stated that the
                                primary vehicle for identifying unallowable costs in
                                contractor billings are contract cost audits and the Office of
                                Inspector General (OIG) should provide greater focus on
                                this area in future annual audit plans and in advice and
                                instructions provided to contractor internal auditors.




________________________________________________________________
Page 6                              Recommendations and Comments
_________________________________________________________________________________________________



                                In addition, the Office of Procurement and Assistance
                                Management and the Argonne and Fermi site offices raised
                                several concerns about our findings and disagreed with our
                                conclusions regarding the adequacy of financial reviews of
                                the University of Chicago and Universities Research
                                Associates home office costs. Management stated that
                                financial reviews of the University of Chicago's cost
                                proposal for fixed payments were performed and the
                                proposal was significantly reduced. Management stated
                                that financial reviews of the Universities Research
                                Associates costs include a review of prior year’s actual
                                expenses and a comparison of such actual expenses with
                                the next year’s budget. Management further stated that any
                                significant cost element increases are requested to be
                                substantiated.

                                Management's comments are included in their entirety as
                                Appendix 3.


AUDITOR COMMENTS                Management's comments were generally responsive to our
                                recommendations. However, we do not agree with the
                                position of the Office of Procurement and Assistance
                                Management that OIG and contractor internal audits are the
                                primary vehicle for identifying unallowable costs in
                                contractor billings. While audits are an essential part of the
                                equation, we do not agree that they are the primary vehicle
                                to identify unallowable costs and prevent such costs from
                                being reimbursed. Consistent with the Government
                                Accountability Office's Standards for Internal Control in
                                the Federal Government, internal controls that are
                                management's responsibility, such as the Federal financial
                                oversight of payments to contractors for home office
                                expenses, are the first line of defense to ensure that
                                unallowable costs are not reimbursed. OIG and contractor
                                internal audits are performed to ensure that both contractor
                                and Department internal controls are effective regarding
                                unallowable costs. Because of our concerns that controls
                                may not be functioning as intended, the OIG, in
                                cooperation with the Department and contractor internal
                                auditors, has recently revised the Cooperative Audit
                                Strategy to enhance coverage of unallowable costs.

                                While we have made revisions to our report to address
                                concerns raised by the Office of Procurement and

________________________________________________________________
Page 7                              Recommendations and Comments
_________________________________________________________________________________________________



                                Assistance Management and the Argonne and Fermi site
                                offices regarding our findings and conclusions, we do not
                                agree with their conclusion that adequate reviews were
                                performed. For the Argonne fixed home office payments,
                                we do not dispute that the University of Chicago's cost
                                proposal was reviewed and reduced. However, in our
                                opinion, the review of the proposal for the 5-year period
                                ended September 30, 2004, was not adequate. As pointed
                                out in the Department's acquisition regulation, management
                                and operating contractors generally require minimal home
                                office involvement because the Government reimburses all
                                management costs associated with operations of the
                                Government facility. In light of this fact, the review of the
                                proposal should have included a documented analysis of
                                whether the fixed payments were a reasonable estimate of
                                the contribution that certain of the University's central
                                offices would provide to Argonne. For the reimbursement
                                of Fermi's actual home office expenses, we do not dispute
                                that a limited review was performed of actual expenses.
                                However, reviews need to be enhanced to ensure that
                                questionable expenses such as those we identified are not
                                reimbursed.

                                Management comments also stated that the compensation
                                structure adopted for Fermi was documented and
                                appropriate. We agree and never intended to question the
                                support or appropriateness of Fermi's compensation
                                structure. We have revised our report to eliminate any
                                confusion over this issue.




________________________________________________________________
Page 8                              Recommendations and Comments
Appendix 1______________________________________

OBJECTIVE             The objective of this audit was to determine whether
                      payments to contractors for home office expenses were
                      equitable.


SCOPE                 The audit was performed between November 2003
                      and January 2005 at Department Headquarters and included
                      selected Department sites. For selected contractors, we
                      performed a limited review of actual home office expenses
                      claimed for the latest fiscal years completed. For fixed
                      payment agreements, we reviewed supporting
                      documentation for agreed-to amounts covering the latest
                      contract period.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed applicable laws, regulations, and cost
                               principles pertaining to home office expenses;

                           •   Reviewed contract clauses and other agreements
                               to determine how home office expenses were
                               reimbursed to contractors;

                           •   Reviewed claimed expenses and performed a
                               limited review of supporting documentation for
                               selected contractors reimbursed for actual
                               incurred home office expenses;

                           •   Reviewed cost proposals, negotiation records,
                               allocation methodology, and supporting
                               documentation for selected contractors
                               reimbursed for home office expenses through
                               fixed payments; and,

                           •   Discussed home office expenses and allocation
                               methodologies with Department and contractor
                               representatives.

                      The audit was conducted in accordance with Government
                      auditing standards for performance audits and included
                      tests of internal controls and compliance with laws and
                      regulations to the extent necessary to satisfy the audit
                      objective. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies
                      that may have existed at the time of our audit. We did not

________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)____________________________

                      identify any performance measures or goals required by the
                      Government Performance and Results Act applicable to
                      home office expenses. We relied on computer-processed
                      data to accomplish the audit objective. When appropriate,
                      we performed limited test work of data reliability during
                      our audit and determined that we could rely on the
                      computer-processed data.

                      We discussed the results of this audit with NNSA on
                      January 26, 2005, and with the Offices of Science and
                      Procurement and Assistance Management on
                      February 7, 2005.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2______________________________________

                                  PRIOR REPORTS


Office of Inspector General Reports

   •   Audit on Central Office Expenses for the Thomas Jefferson National
       Accelerator Facility (DOE/IG-0629, December 8, 2003). This audit
       questioned about $4.6 million of the $4.8 million claimed by and paid to the
       contractor for central office expenses from November 1999 to September
       2002. Questioned costs included home office expenses that were specifically
       not allowable, as well as expenses that were not adequately supported or
       documented. Lack of attention by Federal administrators to contractor claims
       created an atmosphere in which the contractor sought and received
       reimbursement for unallowable and inadequately documented home office
       expenses. The Federal funds used to pay these claims should have been
       employed directly for advancing the scientific mission of the Jefferson
       Laboratory. An allowability determination has been completed, and the
       Department has recouped overpayments of $2.2 million.

   •   Management Controls Over Title X Claims Reimbursement at the West
       Chicago Thorium Processing Facility (OAS-M-04-08, September 2004). This
       audit disclosed that the contractor had inappropriately claimed $7.3 million in
       non-reimbursable costs, and we questioned $14 million in overhead
       previously approved by the Department for 1994 through 2001.




________________________________________________________________
Page 11                                              Prior Reports
Appendix 3______________________________________




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)____________________________




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)____________________________




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)____________________________




________________________________________________________________
Page 15                                     Management Comments
Appendix 3 (continued)____________________________




________________________________________________________________
Page 16                                     Management Comments
Appendix 3 (continued)____________________________




________________________________________________________________
Page 17                                     Management Comments
                                                             IG Report No. DOE/IG-0676

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
